Department of Health and Human Servces
        OFFICE OF
   INSPECTOR GENERAL



     HOME HEALTH SERVICES
    Medicare Beneficiary Satisfaction And
              Understanding In 1995




                SERVICE



                          JU   GffBS BROWN
                          Inspector General
         '0



              ""d:m            Apri 199
                             OEI-093-O153
                     OFFCE OF INSPECfOR GENERA
The mission of the Offce of Inspector General (OIG), as mandated by Public Law
95- 452 , is to protect the integrty of the Department of Health and Human Servces
programs as well as the health and welfare of beneficiaries seIVed    by them.   Ths
statutory mission is carried out through a nationwide program of audits , investigations
inspections, sanctions, and fraud alerts. The Inspector General informs the Secretary
of program and management problems and recommends legislative, regulatory, and
operational approaches to correct them.


                      Offce of Evaluation and Inpetions
The Offce of Evaluation and Inspections (OEI) is one of several components of the
Offce of Inspector General. It conducts short-term management and program
evaluations (called inspections) that focus on issues of concern to the Department , the
Congress, and the public. The inspection reports provide findings and
recommendations on the effciency, vulnerabilty, and effectiveness of departmental
programs.

The OEI's Atlanta Regional Offce prepared this report under the direction of Jesse J.
Flowers, Regional Inspector General , and Christopher Koehler , Deputy Regional
Inspector General. Principal OEI staff included:

Rel!on                                           Headquaers
Paula Bowker , Project Leader                    Jennfer Antico ,   Program Specialist
Betty Apt, Team Leader                           Brian Ritchie ,
                                                              Technical Support
Tammy Hipple, Statistician                       Barbara Tedesco, Statistician
James Green, Contractor

To obtai a copy of this report, caU the Atlanta Regional Offce at 404-331- 4108.
Department of Health and Human Servces
       OFFICE OF
  INSPECTOR GENERAL.



     HOME HEALTH SERVICES
    Medicare Beneficiary Satisfaction And
           Understanding In 1995




               SERVICls.



                           JU   GffBS BROWN
                           Inspector General
           'lO'd3'O             Apri 199
                              OEI-093-O153
               EXECUTIVE SUMMAR Y

PUROSE€
To determe beneficiar satisfaction with and understanding of home health servces.

BACKGROUN€
Medicare is a Federal health insurance program for individuals age 65 and older, and
for certain categories of disabled people. One Medicare benefit is home health
servces. To receive such care , beneficiares must need skied servces such as
                                                                             nursing,
physica therapy, and speech therapy on an intermittent or part-tie     basis. A
physician must cert in a Plan of Care that such care is necessary. Once qua1ed , a
beneficiary may also receive servces such as home health aide servces and on-going
occupational therapy.€

As part of a 1995 sUIVey to determne beneficiary satisfaction with Medicare
                                                                            , we asked
beneficiaries about their experiences with home health servces. Of the 942
respondents to the sUIVey, 139 beneficiaries said they had received home health
servces. Some of the questions used in the 1995 sUIVey were also used in a 1994
sUIVey. We made comparisons whenever possible ,     and tested for statisticaUy
signcant differences using the t- test.€
FIINGS€
Medcae Beneficiares Contiued to be Satified With Home Heath Cae€
      Ninety-five percent said home health agency personnel did an adequate job.€
      Ths is about the same as in 1994, when 91 percent said so.€

      Ninety-six percent of the beneficiaries said they received the number of home
      health visits they thought they needed. This is an increase from 1994, when 86
      percent said the same thing. Ths is a statistically signficant increase at the 90
      percent confdence level.
      Ninety-two percent of the beneficiaries said that a physiCian or home health
      agency employee had explained how their medical condition should improve as
      a result of care. Ths is an increase from 1994, when 76 percent reported that
      an explanation had been provided. In both years , most beneficiaries believed
      their condition improved as expected.€

      Eighty-seven percent of the beneficiaries said a medical person (doctor, hospital
      employee, etc. ) referred them to the home health agency they selected for care.
      Ths is about the same as in 1994, when 79 percent responded similarly.
       Two percent of the beneficiaries said that they were contacted by a home
       health agency, and that was how they selected the one they used.    Ths is not a
       statistically signficant difference from the 6 percent who said the same thing in
       the 1994 sUIVey.



Most Beneficiares Understoo What Medcae Paid For

       Seventy-seven percent of beneficiaries said it was clear what Medicare paid for.
       In the prior year s sUIVey, 53 percent said it was clear. However , our 1994
       sUIVey contained a response option we did not offer in 1995. Therefore , we
       could not statistically compare these results.

Few Beneficies Were Awae Of State Hot Unes

       Only 25 percent of the beneficiaries said they were aware of the hot lines run
       by the State for reporting complaints and fraud. This question was not asked in
       the previous year.



RECOMMNDATION
Based on our prior 1994 sUIVey, we recommended that the      Health Care Financing
Admistration (HCFA) consider ways to improve existing explanations of the home
health benefit to beneficiaries and pursue new methods to increase understanding of
the benefit. Since our report was issued , HCFA published a beneficiar pamphlet and
a video tape presentation which explain hpme health benefits in simple terms.
Additionally, the pamphlet contais phone numbers and information on fraud , quality
of care complaints , and counselig servces.

In addition to the palIphlet and video tape presentation , HCFA has developed a
home health equivalent of an Exlanation of Medicare Benefits , called a Notice of
Utition. Ths is intended to inorm beneficiaries of what home health servces
Medicare has paid for on their behalf.

Our 1995 sUIVey indicates that such HCFA activities are working. OveralI , beneficiary
satisfaction with home health care continued to be high and their understanding of
home health benefits improved since 1994. However , almost 25 percent of Medicare
beneficiaries stil do not understand what home health care is paid for by Medicare.
Further, about 75 percent of Medicare beneficiaries are not aware of State hot lines
for registering complaints about care received , and reporting possible fraud.

We recommend that HCFA continue efforts to educate beneficiaries on Medicare-
funded home health servces. HCFA should make every effort to insure the broadest
possible distribution of the pamphlet and video tape presentation. Such information
material could be distributed. to beneficiaries through home health agencies , hospital
discharge planning units , and other institutional sources of referrals for home health
care. HCFA should also plan to evaluate the Notice of Utilition after it has been in
use for six to twelve months to determe its impact   on beneficiar understanding and
on the Regional Home Health "Intermediaries.

AGENCY    COMM
HCFA concurred with our recommendation. They pointed out that implementation of
the Notice of Uti1tion , started in October of 1996, wi be phased in over the next
few months In FY 1997, HCFA plans to evaluate the effectiveness of the Notice of
Uti1tion process. Further, they wi require intermediaries to conduct beneficiary
outreach activities to improve quality of care and reduce fraud.




                                       iii
                                                                                                                                         ..........................
                                                                                                                                                        .........."
                                             . . . ." .. .. .. .. ................ ... ... ... ............ .... .... .... .... .... .... .... .... .... .... .
                                                                                                                                                              ... ... ... ... ... .. .. .. .. .. . . . .




                                                   TABLE OF CONTENTS€

                      EX SUMY                                                                                                                                                                                  PAGE


                      INODUCTON . .
                      FIINGS. .                                                                                                                                          .................3
                            Contiued Satisfaction                               ........................ .................. 3

                            Understanding Of What Medicare Paid For

                           State " Hot ties                                                                                                                                             .............4
                      RECOMMATION. .                                                                                                                                                                       ........5
                     AGENCY          COMM ............................................
                     APPENIX
                           SUIVey Questions And €
Responses. . . . . . . . . . . . . . . . . . . . . . . . . .

                           Agency Comments. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. B-
                               INTRODUCTION€
 PUROSE€
 To determe beneficiary satisfaction with and understanding of home health servces.€
 BACKGROUN€
The Medcae Progr€

Medicae is a Federal health inurance program for individuals age 65 and older, and for€
cert !;tegories of disabled people. Medicare was authoried in 1965 by title XVII of€
the Social Security Act. In Fisca Year 1995     , Medicae seIVed    approxiately 37. 6   miion€
beneficiaries, and paid benefits totallng over $159 billion. €

The Home Heath Benefit€

One Medicare benefit is home health servces. Home health agencies           (HH)
                                                                              who€
provide such servce to Medicare beneficiaries must be certified as a Medicare provider.€
To receive such care, beneficiaries must need skiled servces such as nursing, physical€
therapy, and speech therapy on an intermittent or part- time basis in their homes. A€
physician must certif in a Plan of Care that such care is necessary. Once qualified , a€
beneficiary may receive other servces such as home health aide servces and on-going€
occupational therapy. The number of visits a beneficiary may receive is not limited.€

MEODS€
In September 1995 , wesuIVeyed 1244 randomly selected Medicare beneficiaries on their€
satisfaction with the Medicare program. Of the 942 beneficiaries who returned€
completed questionnaires , 914 said they had or had not received home health servces in€

health servces. €
the past year. . Of the 914 beneficiares , 139 (15 percent) said they did receive home€


Ths report is based on responses from those 139 beneficiaries. Our analyses are based€
on the number of beneficiaries who answered each question. Based on the number of€
respondents , estimates are generally within 8 percentage points of the true value at the€
95 percent confdence level. Appendix A contains our questionnaire and beneficiary€
responses to each question.€




     HeaIth Care Financig Administration , United States Department of Health and Human Servce,€
  HCFA Statistics. September 1995.€
                                                         ------------


 Comparion to Prevus Sureys

 In 1994 we conducted a simlar national sUIVey                  of Medicare beneficiaries to assess their
 satisfaction with and understanding of Medicare home health servces. 2 Seven of our ten
 sUIVey questions in 1995 were the same as those used in 1994. Therefore
                                                                                          , we compared
 our sUIVey results for the two years where applicable. In makig comparisons of
                                                                                     sUIVey
 results for the two years, we tested for statistically signcat diferences using the t-
                                                                                        test.


 We conducted this inspection in accordance with the 

                                                                     Quality Standards for Inspections

 issued by the President's Council on Integrty and Effciency.




    0ffce of Inpeor General, United States Department of Health and Human Servce
                                                                                 Medicare
Beneficiarv Satisfaction With And Understandin2 Of Home Health Servce.
                                                                               OEI-093-O143
                                        FINDINGS
 MEICA BENCI                          CONT TO BE SATIFI WI HOME
/J
 HETH CAR
                Sa Home       Heo Agen Di An Ade               Job
 The percent of Medicare beneficiaries who said home health personnel did an adequate
job was about the same in 1995 and 1994. In 1995, 95 percent of the beneficiaries        said
home health agency personnel did an adequate job. In        1994, 91 percent said so.   Ths is
not a statisticay signcant increase.

The number of beneficiaries who said they received the number of home health visits€
they thought they needed increased from 1994 to 1995. In 1995 , 96 percent of the
beneficiaries said so, as compared to 86 percent in 1994. Ths is a statistically signcant
increase at the 90 percent confdence level.

In 1995 ,   80 percent of the beneficiaries said home health agency caregivers provided
servce every tie they were  supposed to do so. Likewise ,      99 percent of the beneficiaries
said the caregivers were courteous and respectfl. We did       not ask these questions in our
1994 sUIVey, therefore we      cannot make a comparison.

Pote Be              of Home Heall Cae Were     Exlain to Medare
The number of beneficiaries who said a physician or home health agency employee
explained how their medical condition should improve increased from 1994 to 1995. In
1995 , 92 percent of the beneficiaries reported that a physician or home health agency
employee had explaied how their medical condition should improve as a result of home
health care. In 1994, 76 percent said such. The increase from 1994 to 1995 is
statistically signcant at the 95 percent confdence level. In both years , most of the
beneficiaries said their condition improved as explained.

Med Peronn Gen                   Refered   Be        To Home Heall    Agen
Sources of referral to a home health agency were about the same for most beneficiaries
in 1994 and 1995. In 1995 87 percent of the beneficiaries said that a medical person
(doctor, hospital employee , or other provider) had referred them to the home health
agency they selected for care. In 1994 ,   79 percent responded sinariy. Ths does not
reflect a statistical1y   signcant change from 1994 to 1995.

In 1995 2 percent of the beneficiaries said that they were contacted by a home health
agency employee, as compared to 6 percent in 1994. Ths is not a signcant decrease
from 1994 to 1995.
MOST    BENCI UNEROOD WHT MEICAR PAI FOR€
In 1995 ,   77 percent of beneficiaries said it was clear what home health servces Medicare
paid for. In 1994 ,   only 53 percent said it was clear what Medicare paid for. However€
because our 1994 sUIVey contained a response option that we did not offer in 1995
                                                                                  ,    we€
cannot statistically compare these results.€

FEW    BENCI WE
COMPI. AN FRUD€
                                    AWAR OF STATE HOT          LI FOR REORTIG€
States operate hot lines that beneficiaries can use to register complaints about care , and
to report possible fraudulent practices. Health Care Financing Administration staff
asked us to determe whether or not Medicae beneficiares were aware of State hot€
lies. Our sUIVey showed that only about 25 percent of the beneficiaries said they were€
aware of the hot lies. We have no basis for determning whether or not beneficiary€
awareness of hot lies is increasing or decreasing since we did not ask this question in€
our prior sUIVeys.€
                        RECOMMENDATION€
Based on our prior 1994 sUIVey, we recommended that HCFA consider ways to improve€
existing explanations of the home health benefit to beneficiares and pursue new methods€
to increase understanding of the benefit. Since our report was issued , HCFA published a€
beneficiar pamphlet and a video tape presentation which explai home health benefits€
in simple terms. Additionally, the pamphlet contains phone numbers and inormation on€
fraud , qualty of care complaints , and counselig servces.€

In addition to the pamphlet and video tape presentation, HCFA has developed a home€
health equivalent of an Exlanation of Medicare Benefits , called a Notice of Utilition.€
Ths is intended to inorm beneficiaries of what home health servces Medicare has paid€
for on their behalf.



Our 1995 sUIVey indicates that such HCFA activities are workig. OveralI , beneficiary€
satisfaction with home health care continued to be high and their understanding of home€
health benefits improved since 1994. However, almost 25 percent of Medicare€
beneficiaries stil do not understand what home health care is paid for by Medicare.€
Further, about 75 percent of Medicare beneficiaries are not aware of State hot lines for€
registerig complaints about care received , and reporting possible fraud.€


We recommend that HCFA continue efforts to educate beneficiares on Medicare-funded€
home health servces. HCFA should make every effort to insure the broadest possible€
distribution of the pamphlet and video tape presentation. Such information material€
could be distributed to beneficiaries through home health agencies , hospital discharge€
plamIg unts , and other institutional sources of referrals for home health care. HCFA€
should also plan to evaluate the Notice of Utilition after it has been in use for six to€
twelve months to determine its impact on beneficiary understanding and on the Regional€
Home Health Intermediaries.€
                     AGENCY COMMENTS
HCFA concurred with our recommendation. They pointed out that the Notice of
Utiltion, implemented in October of 1996, wil be phased in over the next few months.
In FY 1997, HCFA plans to evaluate the effectiveness of the Notice of Utilzation
process. Furter, they wi requie intermediares     to conduct beneficiary outreach
activities related to the home health benefit to improve quality of care and reduce fraud.

Appendi B shows the full text of the comments provided by HCFA
                                APPENDIX A€
                           SURVEY QUEONS                   AN REPONSES
 Have you recived servce                 in your home       from a    home heath al!en        in the past
yea?
139         Yes
775€

Th          about the lat    tie you recived servce                  in vour home   from a   home heath


Was it clea to you what Medca                         pad for?
(Check        one    aner.
103         Yes , it was clear what Medicare paid for.
              , it was  not clear what Medicare paid for.
            I do not remember if it was clear what Medicare paid for.
            Medicare has not yet paid for the home health servces.

Thinking back to when you recived home cae from a home heath
                                                                                             agency,
           Did the caegier(s) stay long                enough to do hi or her job?

           128         Yes


           Did the caegier(s) do hi or her job                   adequately?

           123         Yes



agency?
How would you describe the number of viits you reived                          from the home


123       I received the number of visits I needed.
          I received fewer visits than I needed.
          I received more visits than I needed.
      How many ties did the caegier(s) come       when he or she wa suppo to?€
      106    Every     tie€
             Most of the time€
             Some of the   tie€
             Seldom€
             Never€

      Was the caegier(s) frm the home heath agency

      130    Yes€
                                                         courus and          re?€
            Some caregivers were courteous and some were not.€
            (Please explai):   Took food and drik and Tvleno          hout   as!i€
      Did your docor or home heath agency     exla how your medca condition should
      improe as a result of the ca you recived frm a home       heath agency?

      116   Yes€


      Did your condition improve as much as you were told it would?€

            Yes€

            No one explained how much I should improve.

      How did you selec the home heath agency you     us?
      115   A doctor; hospital , or other medical person or facilty referred me to the
            home health agency. .
            Friends or famiy referred me to the home health agency.

            The home health agency contacted me fist.€
            I don t recall.€

10.   Before toy, were you awae that your State has a "hot     lie"   to regiter
      complaits about home heath cae?

            Yes€




                                        A- 2

 APPENDIX B




AGENCY COMMNT
                                                                                 : ..   ('.,




         DEPARTMENT OF HEALTH &, HUMAN SERVICES                        Health Care Financing Administration

5'!                                                                    The Administrator
                                                                       Washington. D. C.      20201





                              'k~
 DATE:
              FEB I 31997 




 TO:          Bruce C. Vladec
             Admstrator \:
 FROM:       June Gibbs Brown
             Inpector General



 SUBJECT:    Offce of Inspector Genera (OIG) Draf Report: "Home Health Servces-
             Medicare BeneficiBI Satisfaction and Understadig in 1995" - Operation
             Restore Trust

 We reviewed the above-referenced report concerng home health servces to Medicare
 beneficiares. Our comments are attched for your considemtion. Than you for the
 opportty to review and comment on ths report.
 Attchment




                                                                             - ( :J
                                                                            rq

                                                                         fTC;   co
                                                                         2:- :1 N
                                                                                   r'f
                                                                         :I..
                                                                         r- -   ,. 1)
                                                                                   ..I(
                                                                                        1'"

                                                                            n N
                                    EAO€
                                    SAO                                     c 0

                                    PDI0€
                                    DI!JAS€
                                    DI!JEC€
                                    DI!JEI€
                                    DI!JI€
                                    DIO.
                                    AlO.
                                    OOCIO
                                    Execec
                                    Date Scnt 

                         e F'




HCF A should contiue   its effort to educate beneficiares on Medicare-fuded home
health servces. It should make every effort to ensure the broadest possible distrbution
the pamphlet and video tape presentation. HCFA should also plan to evaluate the Notice
of Utition (NOD) afer it has been in use for six to twelve month to determe its
impact on beneficiar understadig and the regional home health intermediares.




We concur, HCFA is actively involved in effort to increase and improve beneficiar
understadig of home health benefits. In October 1996 , HCFA implemented the
requiement that intermediares send an NOU to Medicare beneficiares receivig home
heath servces. The NOD process wi be phased-in on a national level over the next
several months. HCFA plans to evaluate the NOD process afer July 1997. In addition,
HCF A wil requie al intermediares to conduct beneficiar outreach activities related to
home health benefit coverage issues such as qualty of care, fraud and counelig
servces.
